No. ______
In the

Supreme Court of the United States
__________________

JIM C. HODGE, ET AL.,
Petitioners,
v.
UNITED STATES OF AMERICA,
Respondent.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Fifth Circuit

__________________
PETITION FOR WRIT OF CERTIORARI
__________________
David Alan Warrington
Counsel of Record
KUTAK ROCK LLP
1625 Eye Street NW
Suite 800
Washington, D.C. 20006
(202) 828-2437
david.warrington@kutakrock.com
Counsel for Petitioners

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED
Whether the causation element standard under the
False Claims Act is proximate cause, requiring both
that the harm was foreseeable and that the false
statement or fraudulent conduct was a substantial
factor in causing the harm, or is the standard “but for”
causation based solely on foreseeability?

ii
PARTIES TO THE PROCEEDING
Jim C. Hodge; Allquest Home Mortgage
Corporation, formerly known as Allied Home Mortgage
Corporation; and Americus Mortgage Corporation,
formerly known as Allied Home Mortgage Capital
Corporation, are the Petitioners here and were the
Defendants-Appellants below.
The United States of America intervened in the case
below and is the Respondent here and was the
Plaintiff-Appellee below.
The qui tam relator is Irene E. Mark as the personal
representative of the Estate of Peter M. Belli.

iii
CORPORATE DISCLOSURE STATEMENT
Petitioner Jim C. Hodge is an individual. The
corporate petitioners, Allquest Home Mortgage,
formerly known as Allied Home Mortgage Corporation,
nor Americus Mortgage Corporation, formerly known
as Allied Home Mortgage Capital Corporation, have no
parent corporation[s] and no publicly held company
owns 10% or more stock in either corporate petitioner.

iv
LIST OF DIRECTLY RELATED PROCEEDINGS
There are no proceedings that are directly related to
this case.

v
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING. . . . . . . . . . . . . . ii
CORPORATE DISCLOSURE STATEMENT . . . . . iii
LIST OF DIRECTLY RELATED PROCEEDINGS iv
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . ix
PETITION FOR A WRIT OF CERTIORARI . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTORY PROVISIONS INVOLVED . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 2
A. The False Claims Act . . . . . . . . . . . . . . . . . 2
B. Factual Background and Proceedings
Below . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
1. Unregistered Branches. . . . . . . . . . . . . 5
2. Reckless Underwriting . . . . . . . . . . . . . 6
The Fifth Circuit’s Opinion Below. . . . . . . . . . . . . . 10
REASONS FOR GRANTING CERTIORARI . . . . . 14
I.

The Fifth Circuit is now split with the Third,
Seventh, Tenth, and District of Columbia
Circuits on the proximate cause standard
under the False Claims Act. . . . . . . . . . . . . . 14

vi
A. The Third Circuit was the first to adopt
proximate cause in FCA cases. . . . . . . . . 15
B. In Miller, the Fifth Circuit followed the
Third Circuit in adopting proximate
cause. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
C. The Seventh, Tenth and District of
Columbia Circuits all follow Hibbs and
Miller and adopt the more stringent
proximate cause standard.. . . . . . . . . . . . 18
II.

The Opinion Below cites Miller and
proximate cause in name but applies “but
for” causation. . . . . . . . . . . . . . . . . . . . . . . . . 20

III.

This Court’s decision in Escobar should guide
it now in setting the FCA’s causation
standard. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

IV.

The Court should adopt the proximate cause
standard from Hibbs.. . . . . . . . . . . . . . . . . . . 24

V.

This case presents an ideal opportunity for
the Court to resolve this circuit split and
decide a question of exceptional importance
to FCA litigants. . . . . . . . . . . . . . . . . . . . . . . 25

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

vii
APPENDIX
Appendix A Opinion in the United States Court of
Appeals for the Fifth Circuit
(August 8, 2019) . . . . . . . . . . . . . . App. 1
Appendix B Memorandum Opinion and Order in
the United States District Court,
Southern District of Texas, Houston
Division
(September 14, 2017) . . . . . . . . . App. 25
Appendix C Memorandum Opinion and Order in
the United States District Court,
Southern District of Texas, Houston
Division
(September 14, 2017) . . . . . . . . . App. 40
Appendix D Final Judgment in the United States
District Court, Southern District of Texas
(September 29, 2017) . . . . . . . . . App. 44
Appendix E Order Denying Petition for Rehearing
in the United States Court of Appeals
for the Fifth Circuit
(November 12, 2019) . . . . . . . . . . App. 46
Appendix F 31 U.S.C. § 3729 . . . . . . . . . . . . . App. 48
31 U.S.C. § 3730 . . . . . . . . . . . . . App. 53
Appendix G Early Payment Default Individual
Case Summaries
Fold-Out Exhibit. . . . . . . . . . . . . App. 63

viii
Appendix H Special Jury Verdict Form in the
United States District Court,
Southern District of Texas, Houston
Division
(November 29, 2016) . . . . . . . . . . App. 64
Appendix I Excerpts of Transcript (Payne
Testimony) Before Judge George C.
Hanks, Jr. in the United States
District Court, Southern District of
Texas, Houston Division
(November 3, 2016). . . . . . . . . . . App. 70

ix
TABLE OF AUTHORITIES
CASES
Allison Engine Co., Inc. v. United States ex rel
Sanders,
553 U.S. 662 (2008). . . . . . . . . . . . . . . . . . . . . . . . 3
Paroline v. United States,
572 U.S. 434 (2014). . . . . . . . . . . . . . . . . . . . . 3, 20
United States v. Eghbal,
548 F.3d 1281 (2008) . . . . . . . . . . . . . . . . . . . . . . 4
United States v. Hibbs,
568 F.2d 347 (3d Cir. 1977) . . . . . . . . . . . . passim
United States v. Luce,
873 F.3d 999 (2017) . . . . . . . . . . . . . . . . 18, 19, 24
United States v. Miller,
645 F.2d 473 (5th Cir. 1981). . . . . . . . . . . . passim
United States, ex rel. Sikkenga v. Regence BlueCross
BlueShield of Utah,
472 F.3d 702 (2006) . . . . . . . . . . . . . . . . . . . 19, 24
United States, ex rel., Schwedt v. Planning Research
Corp.,
59 F.3d 196 (1995) . . . . . . . . . . . . . . . . . . . . 19, 24
Universal Health Servs., Inc. v. United States, ex rel
Escobar,
136 S. Ct. 1989 (2016). . . . . . . . . . 2, 22, 23, 24, 25

x
STATUTES AND REGULATIONS
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 1
The False Claims Act (FCA),
31 U.S.C. §§ 3729-3733. . . . . . . . . . . . . . . . . . . 1, 2
31 U.S.C. § 3729 . . . . . . . . . . . . . . . . . . . . . . . . . 1, 2, 3
31 U.S.C. § 3730 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
31 U.S.C. § 3730(b)(2) . . . . . . . . . . . . . . . . . . . . . . 2, 5
P.L. 111-21-May 20, 2009 . . . . . . . . . . . . . . . . . . . . . 3
OTHER AUTHORITIES
http://www.ca5.uscourts.gov/OralArg
Recordings/17/17-20720_3-11-2019.mp3 . . . . . . . 7
https://www.justice.gov/opa/pr/justice-departmentrecovers-over-3-billion-false-claims-act-casesfiscal-year-2019 . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

1
PETITION FOR A WRIT OF CERTIORARI
Petitioners Jim C. Hodge, Allquest Home Mortgage
Corporation, formerly known as Allied Home Mortgage
Corporation, and Americus Mortgage Corporation,
formerly known as Allied Home Mortgage Capital
Corporation, respectfully petition for a writ of certiorari
to review the decision of the Fifth Circuit below.
OPINIONS BELOW
The decision below is published at 933 F.3d 468 and
is reprinted at Pet. App. 1-24. The order of the court of
appeals denying rehearing en banc is reprinted at Pet.
App. 46-47.
JURISDICTION
The Fifth Circuit entered its decision on August 8,
2019 (technical revision to opinion on August 9, 2019).
Petitioners filed a petition for rehearing en banc on
September 20, 2019, which was denied on
November 12, 2019. This Court has jurisdiction
pursuant to 28 U.S.C. § 1254(1).
STATUTORY PROVISIONS INVOLVED
The False Claims Act 31 U.S.C. § 3729-33. The
relevant provisions of the FCA §§ 3729, 3730, are
reproduced at Pet. App. 48-62.

2
STATEMENT OF THE CASE
A. The False Claims Act
The False Claims Act (FCA), 31 U.S.C. §§ 37293733, permits individuals, known as qui tam relators,
to sue on behalf of the United States to recover
damages for frauds against the government. The
government may, but is not obligated to, intervene in
a suit brought by an individual[s] under the FCA.
§ 3730(b)(2). The FCA permits recovery of “3 times the
amount of damages which the Government sustains
because of the act of” a defendant. § 3729. But the
FCA “is not a means of imposing treble damages and
other penalties for insignificant regulatory or
contractual violations.” Universal Health Servs., Inc.
v. United States, ex rel Escobar, 136 S. Ct. 1989, 2004
(2016) (holding that the materiality standard under the
FCA is a rigorous and demanding standard). The FCA
has a long history dating back to the post-Civil War
era. Id. at 1966. It is one of the most frequently
litigated statutes in federal courts. The federal
government recovered more than $3 billion in
settlements and judgments under the FCA in 2019
alone, and more than $62 billion since 1986.1
This case involves FCA claims against two mortgage
companies and their Chief Executive Officer (CEO) who
allegedly defrauded the government when they made
false certifications to obtain government insurance for
loans that later defaulted. Pet. App. 2-3.
1

https://www.justice.gov/opa/pr/justice-department-recovers-over3-billion-false-claims-act-cases-fiscal-year-2019 (last accessed:
Feb. 10, 2020).

3
Liability under the FCA requires proof of (1) a false
statement or record, (2) made with scienter, (3) that
was material to the government’s decision to pay, and
(4) the government pays the claim and suffers because
of the actions of that person. See § 3729 (emphasis
added); see also Allison Engine Co., Inc. v. United
States ex rel Sanders, 553 U.S. 662 (2008)(decided
under prior 1986 version of the FCA that was later
amended to clarify the law to “reflect the original
intent” of the FCA see P.L. 111-21-May 20, 2009). This
“because of” requirement is the causation element of
the FCA and is the subject of this petition.
There are two causation standards that the Circuits
have applied to FCA claims under § 3729—“but for”
causation and proximate causation. “But for” causation
requires only that the harm be foreseeable while
proximate causation requires not only that the harm
was foreseeable but also requires that the defendant’s
conduct was a substantial factor in causing the harm,
i.e. that the conduct was a cause in fact of the harm.
Paroline v. United States, 572 U.S. 434, 445 (2014).
Proximate cause precludes “liability in situations
where the causal link between the conduct and result
is so attenuated that the consequence more aptly
described as mere fortuity.” Id.
Beginning in 1977 and the Third Circuit’s decision
in United States v. Hibbs, 568 F.2d 347 (3d Cir. 1977),
the circuit courts that have grappled with this issue
have settled on the more stringent proximate cause
standard. The Fifth Circuit followed the Third Circuit
in United States v. Miller, 645 F.2d 473 (5th Cir. 1981)
in adopting proximate cause standard requiring both

4
foreseeability and cause-in-fact. Subsequently, the
Seventh, Tenth, and District of Columbia Circuits all
followed Hibbs and Miller and have adopted the
proximate cause standard.
The Ninth Circuit
discussed both standards in United States v. Eghbal,
548 F.3d 1281, 1284-1285 (2008), but because it found
that the conduct at issue in that case satisfied both
“but for” and the more stringent proximate cause
standard it did not adopt either as a clear causation
standard. In the decision below, the Fifth Circuit
changed the causation landscape when it decided to
abandon its nearly four-decade old jurisprudence to
return to the less stringent “but for” causation
standard it had long rejected.
B. Factual Background and Proceedings
Below
The Corporate Petitioners – referred to herein as
“Allied Capital” and “Allied Corporation” – were
approved by the Department of Housing and Urban
Development (HUD) to originate, underwrite and make
residential mortgage loans insured by the Federal
Housing Administration’s (FHA) unit of HUD.
Petitioner Hodge served as CEO of both corporations.
“Allied Capital was a loan correspondent, meaning
it could originate loans but was not permitted to hold
loans” and had to have HUD approval, which came
with a branch identification number, for each branch
office that originated FHA loans. Pet. App. 2-3. Allied
Corporation was a lender or mortgagee that could
make and hold loans in its own name and was
responsible for underwriting those loans to comply with
HUD guidelines. Id.

5
In 2011, a qui tam relator filed suit against the
Petitioners under, inter alia, the FCA. Pet. App. 3.
The United States exercised its right to intervene in
the lawsuit pursuant to 31 U.S.C. § 3730(b)(2). The
FCA claims were based on allegations that Petitioner
Allied Capital originated FHA insured loans from
unregistered branches and Petitioner Allied
Corporation recklessly underwrote FHA loans. Id. The
facts of the case are summarized in the Fifth Circuit’s
opinion, Pet. App. 2-4. The facts pertinent to this
appeal are summarized below.
1. Unregistered Branches
Between 2007 and 2010, HUD required that each
individual loan correspondent branch office register by
an individual branch identification number. Previously
HUD allowed one registered branch in a geographic
area to operate an unlimited number of unregistered
“satellite” offices within that region. HUD abandoned
this branch registration policy in 2010.
In 2007, after HUD instituted its new rule requiring
individual branch identification numbers, Allied
Capital tried to register certain existing North Carolina
branches. It was unable to register them through the
HUD system because, years earlier, two Allied Capital
branches in North Carolina had been closed because of
high default rates on loans made on manufactured
housing units. Allied Capital was told it would have to
re-open these closed branches and have them
reinstated with HUD before any other Allied Capital
branches in the geographic area could be registered
and receive a branch identification number. Allied
Capital sought assistance from HUD in resolving this

6
issue and a HUD official advised Allied Capital to use
the branch identification numbers from its other
branches in North Carolina that were already
registered. Allied Capital followed this advice.
Also, in 2006, Allied Capital set up and registered
an office it called the National Referral Center (NRC)
to facilitate access to FHA loans for branches that
operated in areas that rarely originated FHA loans.
Allied Capital created the NRC because FHA loans
were complex and it believed that, rather than having
an inexperienced branch originate the loan, it would be
better to have the loan referred to experienced NRC
staff. In these situations, the NRC’s identification code
would be listed as the originating branch.
2. Reckless Underwriting
The government presented its reckless underwriting
evidence through an expert. The expert testified that
certain loans failed to satisfy his understanding of
HUD underwriting guidelines and were therefore
ineligible for FHA insurance. The government’s expert
conceded that he did not make any determination as to
the reason for any loan default and no government
expert testified to causation. The only evidence at trial
regarding the cause of any default was found in the
Individual Case Summaries from Early Payment
Default Audits, which listed reasons for default such as
death of borrower, borrower’s loss of job, etc. See e.g.,
Pet. App. G (highlighted). There was no evidence that
any defect in a loan file found by the government’s
expert was the cause of any subsequent loan default—a

7
point conceded by the government at oral argument
before the Fifth Circuit.2
After a five-week jury trial, the government secured
judgments and penalties that totaled nearly $300
million. Pet. App. 2.
The Petitioners filed post-trial motions for
Judgment as a Matter of Law and for a New Trial
which were both denied. Pet. App. 25-39, 40-43. In the
Petitioner’s motion for Judgment as a Matter of Law,
the Petitioners argued that the government’s case
failed to meet the proximate cause standard, the
district court disagreed. Pet. App. 30. According to the
district court:
Under Fifth Circuit law, the United States must
show that a defendant’s false statement or
fraudulent course of conduct “caused the
government to pay out money or to forfeit money
due (i.e., that involved a claim).” Longhi, 575
F.3d, at 467 (citation omitted); see also United
States v. Miller, 645 F.2d 473, 476 (5th Cir.
1981) (“The language of the [FCA] clearly
requires that before the United States may
recover ... damages, it must demonstrate the
element of causation between the false
statements and the loss.”). In a federal housing
case, the United States must show that the false
statements in the application caused the
subsequent default. Miller, 645 F.2d at 475.
2

Available at:
http://www.ca5.uscourts.gov/OralArgRecordings/17/17-20720_3-112019.mp3 minute 38:04-39:10 (last accessed 2/10/2020).

8
However, “the Fifth Circuit has not delineated a
specific causation standard applicable to FCA
claims.” United States v. Abbott Labs, No. 3:06CV-1769-M, 2016 WL 80000, at *6 (N.D. Tex.
Jan. 7, 2016). Here, the Court and the parties
agreed that the United States must demonstrate
that Allied proximately caused the loss incurred.
Proximate causation carries a more stringent
standard of proof than does actual (i.e., “but for”)
causation. However, it is not so stringent as to
require elimination of all alternative possible
causes. See Paroline v. United States, — U.S. —,
134 S.Ct. 1710, 1719-20, 188 L. Ed. 2d 714
(2014) (“Every event has many causes, however
... and only some of them are proximate, as the
law uses that term. So to say that one event was
a proximate cause of another means that it was
not just any cause, but one with a sufficient
connection to the result.”); United States v.
Spicer, 57 F.3d 1152, 1159 (D.C. Cir. 1995) (“It
is undoubtedly true that in each case other
factors also ‘caused’ the buyer’s default, but that
is of no moment, for as long as Spicer’s
misrepresentations were a material and
proximate cause, they need not have been the
sole factor causing HUD’s losses.”).
Pet. App. 31-32. The district court’s proximate cause
analysis was superficial and the proof at trial was
inconsistent with even the district court’s muddled
proximate cause standard. The district court found
proximate cause because the government claimed that,
had HUD known loans were being originated from
unregistered branches or were recklessly underwritten,

9
HUD would not have insured the loans, thus any later
default, whether due to the death of the borrower or
any other intervening cause, was therefore attributed
to the Petitioner’s actions. Despite the label applied by
the district court, this is classic “but for” causation, not
proximate causation. There was no evidence of any
defaults that would have not occurred had the
originating branch office been properly identified or if
the complained-of loan file defects (reckless
underwriting) had been absent. The district court did
not cite a single such causal connection. It could not
because there was no evidence of such a connection
presented by the government at trial.3

3

The district court stated that the government introduced
evidence at trial that the Petitioners had made false statements
regarding borrowers’ creditworthiness. The district court made
this statement without citation to the trial record. The lack of any
citation is not surprising. The district court was unable to cite the
trial record simply because there was no such evidence of any false
statement regarding a borrower’s creditworthiness. The Fifth
Circuit explained this lack of evidence from the trial away by
saying that “connecting false statements and defaults with specific
loans is not feasible in a case that relies on sampling and
extrapolation, as does this one.” Pet. App. at 9. The Fifth Circuit’s
statement is not persuasive.
The government had every
opportunity to identify a false statement regarding the borrower’s
ability to pay from any of the loan files that were identified
through the “sampling and extrapolation” in this case. It
specifically chose not to do that and instead relied upon a theory
of liability that the government’s losses were caused when loans
that were ineligible for FHA insurance in the first instance later
defaulted. The government’s evidence was “but for” causation, and
the district court and Fifth Circuit modified the proximate cause
standard to fit the government’s evidence.

10
Petitioners appealed to the Fifth Circuit which
affirmed the district court’s judgment and also denied
the Petitioners request for rehearing en banc. Pet.
App. 1-24, 46-47.
The Fifth Circuit’s Opinion Below
In affirming the district court, the Fifth Circuit held
that proximate cause was the appropriate standard:
“[w]e agree proximate cause is required.” Pet. App. 9.
But the standard it applied was simple “but for”
causation.
The defendants also challenge the sufficiency of
the evidence to establish causation. The
defendants argue that their incorrectly
identifying the originating branch for a specific
loan was not shown to have caused a specific
default by a borrower. The defendants rely on
caselaw that in “a federal housing case, the
United States must show that the false
statements in the application were the cause of
subsequent defaults.” United States v. Miller,
645 F.2d 473, 476 (5th Cir. Unit A May 1981). In
Miller, we acknowledged that not all false
statements have a causal connection to a later
default, but “false statements regarding the
ability of purchasers to afford housing could very
well be the major factor for subsequent
defaults.” Id.

11
The defendants insist that a restrictive
proximate cause inquiry is needed that connects
specific false statements to individual defaults.
There arguably is support for that proposal in a
Miller footnote, where the court described
favorably the facts of another precedent in which
“the false representations . . . arguably had some
relevance to the credit worthiness of the
borrower as well as the value of security, and
thus causal connection with the default which
later occurred.” Id. at 476 n.3 (quoting United
States v. Hibbs, 568 F.2d 347, 352 (3d Cir.
1977)). Yet the facts of a specific case are not
necessarily a limit on the legal principles.
We agree proximate cause is required. That is a
common-law concept focused on the scope of risk
and foreseeability. See Paroline v. United States,
572 U.S. 434, 445 (2014). The Supreme Court
has labeled proximate cause as “a flexible
concept.” Id. at 444 (quoting Bridge v. Phoenix
Bond & Indem. Co., 553 U.S. 639, 654 (2008)). It
“is often explicated in terms of foreseeability or
the scope of the risk created by the predicate
conduct” and “thus serves, inter alia, to preclude
liability in situations where the causal link
between conduct and result is so attenuated that
the consequence is more aptly described as mere
fortuity.” Id. at 445.
Pet. App. 7-9.

12
After claiming to adopt proximate cause as the
standard, the Fifth Circuit then did two things. First,
it stated that it was not feasible to analyze individual
loans for false statements to connect them to defaults
of specific loans because the case involved sampling
and extrapolation. Second, the Fifth Circuit held that
it was foreseeable that loans from unregistered
branches or that were recklessly underwritten would
fail at higher rates.
We expect that connecting false statements and
defaults with specific loans is not feasible in a
case that relies on sampling and extrapolation,
as does this one. The government fairly reasons
that HUD linked unregistered branches to
higher risks of default, and that the expert
evidence showed those loans, as predicted,
defaulted at higher rates. It then follows that
the false statements distorted the risk perceived
by HUD, which caused it to insure more loans
and incur more losses than it would have
otherwise.
This amounts to more than enough evidence for
a jury to find that the false statements were a
proximate cause of the losses. Viewing the risks
and effects of the false statements in the
aggregate reveals the relationship between the
misconduct and the loss. Even if the defendants
did not know which specific loans would
eventually default, it was foreseeable that a
higher percentage of them would result in
claims.
Pet. App. 9-10.

13
The defendants contend that the government
put on no evidence that “reckless underwriting”
caused defaults. The government’s expert,
though, testified explicitly about deficiently
underwritten loans that resulted in claims. At
the very least, “false statements regarding the
ability of purchasers to afford housing could very
well be the major factor for subsequent
defaults.” Miller, 645 F.2d at 476. The jury could
have found that they were such a factor here.
Pet. App. 11.
The government’s expert did not testify as to what
caused any loan to default, he only testified to FHA
insurance eligibility. Pet. App. 71-72. And there was
no evidence at trial that there were any false
statements regarding a borrower’s ability to repay a
loan. Nor did the government’s expert determine that
any loan default was caused by reckless underwriting
or false originating branch identification, he conceded
that he did not analyze causation. Pet. App.71. No
such evidence was cited by the district court, and the
Fifth Circuit merely speculated that the “jury could
have found that they were such a factor here.” Id.
Speculation is neither evidence nor proof, and absent a
clear standard of causation, the reach of the FCA is
unmoored from any restraint.

14
REASONS FOR GRANTING CERTIORARI
The Court should grand certiorari to answer an
exceedingly important question that has divided the
circuits: what is the proper standard of causation under
the FCA? In the Third, Seventh, Tenth, and District of
Columbia Circuits the standard of causation is
proximate cause that requires proof that the harm was
foreseeable and that the false statement or fraudulent
conduct was a substantial factor in causing the harm.
The Fifth Circuit held to this standard for nearly four
decades until its decision in this case. The Ninth
Circuit has discussed both “but for” causation and
proximate cause but has not adopted a clear FCA
causation standard. This Court has not spoken on the
appropriate causation standard under the FCA. This
Court should grant review to set forth a uniform FCA
causation standard. Furthermore, the Court should
grant review to adopt the proximate cause standard
that is consistent with the text of the FCA so as to
prevent the law from being used to address an
unlimited variety regulatory non-compliance.
I.

The Fifth Circuit is now split with the
Third, Seventh, Tenth, and District of
Columbia Circuits on the proximate cause
standard under the False Claims Act.

Until its decision below, the Fifth, Third, Seventh,
Tenth, and District of Columbia Circuits had adopted
the proximate cause standard for causation under the
FCA. The Fifth Circuit opinion below created a conflict
the circuits.

15
A. The Third Circuit was the first to adopt
proximate cause in FCA cases.
The Third Circuit was the first to adopt the more
stringent proximate cause standard in FCA cases. In
United States v. Hibbs, 568 F.2d 347 (3rd Cir. 1977), a
real estate broker furnished false information
regarding the condition of houses that received FHA
insured mortgages. When those mortgages defaulted,
the government sued the broker for those false
statements under the FCA.
The government’s
argument for liability was premised on theory that
“had Hibbs not furnished the false certifications, it
would not have insured the mortgage and therefore
would not have been called upon to make any payment
post hoc ergo propter hoc.” Id. at 351. The Third
Circuit rejected that approach to causation:
We are unable to accept this argument because
it ignores the statute’s [FCA] restrictive
language “by reason of.” The damages were
sustained by the United States because of
defaults of the mortgagors and to some extent
were increased by the unexpected diminution of
property value caused by the lead paint
injunction. Neither of those events was caused
by or related to the false certifications. Indeed,
precisely the same loss would have been suffered
by the government had the certifications been
accurate and truthful.
Id. at 351.
The case against the Petitioners was strikingly
similar to the claims brought against Hibbs that the

16
Third Circuit rejected. Here, there was no evidence
that a false branch identification number or a defect in
underwriting caused any of the loans at issue in the
case to default. If a borrower died and the loan went
into default because there was no one to pay the
mortgage, that loss would have occurred regardless of
the veracity of the branch identification number or how
well the loan file was underwritten. As further
explained by the Third Circuit:
To further illustrate the extreme to which the
government’s argument would lead if the
mortgagors had defaulted because their houses
had been destroyed by a flood or some other
uninsured catastrophe, the government’s theory
would nevertheless hold Hibbs liable because he
failed to call attention to defects in the
plumbing. We cannot conceive that Congress
intended such an inequitable result.
Id. This is precisely the issue in this case that both the
district court and Fifth Circuit glossed over.
B. In Miller, the Fifth Circuit followed the
Third Circuit in adopting proximate
cause.
Hibbs’ holding and reasoning was expressly adopted
by the Fifth Circuit in United States v. Miller, 645 F.2d
473, 475-476 (5th Cir. 1981). Miller held that the
government must prove “causation between the false
statements and the loss” and that “[i]n the context of
a federal housing case, the United States must
show that the false statements in the application
were the cause of subsequent defaults.” Miller,

17
645 F.2d at 476 (emphasis added). The government
failed to make that connection in this case.
Just as in this case, Miller involved mortgage
applications for FHA loans with federal mortgage
insurance. Id. 474. Unlike here, it was alleged that
the Miller defendants knew that certain statements
regarding the creditworthiness, net worth, amount of
down payment, and past and present debt of the
borrowers, were false when the applications were
submitted to HUD. Id. at 474-475. There was no such
allegation against the Petitioners here, the pertinent
allegations were that the government incurred losses
because the Petitioners had originated loans from
unregistered branches and recklessly underwritten
loans. This is precisely what the jury was asked to
answer, not whether they found false statements
regarding borrowers’ ability to repay loans. Pet.
App. G.
In the district court’s denial of the Petitioners’
motion for judgment as a matter of law, the district
made a bare claim that the government had put on
evidence that the Petitioners had made false
statements regarding borrower’s creditworthiness, but
the district court’s statement is unadorned with any
citation to the trial record and in fact no such evidence
was presented at trial. At oral argument before the
Fifth Circuit panel, the government conceded that
there was no such evidence, but instead of reversing
the district court on this failure of proof alone, the Fifth
Circuit explained the lack of any such evidence by
saying that “connecting false statements and defaults
with specific loans is not feasible in a case that relies

18
on sampling and extrapolation, as does this one.” Pet.
App. at 9.
C. The Seventh, Tenth and District of
Columbia Circuits all follow Hibbs and
Miller and adopt the more stringent
proximate cause standard.
The Seventh Circuit specifically adopted Miller’s
proximate cause standard and overruled its own prior
“but for” causation precedent in United States v. Luce,
873 F.3d 999 (2017). In Luce, a mortgage company
owner falsely certified that he was not under criminal
investigation or indictment on his annual certifications
to HUD in order to remain eligible to originate FHA
loans. When some of those loans defaulted, the
government sued to recover under the FCA for those
false statements. The Seventh Circuit disagreed with
the government’s theory of liability.
The Seventh Circuit explained that proximate cause
required both a cause in fact and legal cause where
legal cause was whether the injury was a foreseeable
consequence of the specific wrongful conduct and were
cause in fact was conduct that was a substantial factor
in causing the injury. Id. at 1012. While damage
resulting from Luce’s false statements may have been
foreseeable, they were not the cause in fact of the
harm. Id. In other words, pertinent here, if the
borrower dies and the loan goes into default, the truth
or falsity of the originating branch identification
number or whether the loan was correctly
underwritten is of no moment. The Fifth Circuit’s
opinion below rests solely on legal cause and obviates

19
the substantial factor requirement thus, it conflicts
with Luce.
The Tenth Circuit also followed the Third Circuit’s
Hibbs holding in United States, ex rel. Sikkenga v.
Regence BlueCross BlueShield of Utah, 472 F.3d 702,
714 (2006). In Hibbs, the Tenth Circuit held that a
“sufficient nexus between the conduct of the party and
the ultimate presentation of the false claim [was
required] to support liability under the FCA.” The
Tenth Circuit’s proximate cause standard requires a
causal connection between the specific fraudulent
conduct and the loss, not that the loss was merely
foreseeable. Id. In this case, there was no evidence
that the false branch identification numbers or that
deficiencies in underwriting caused any loss, therefore,
the government’s evidence in this case would be
insufficient to satisfy the Tenth Circuit standard, hence
the obvious conflict with the Fifth Circuit’s holding
below.
The District of Columbia Circuit also adopted the
proximate cause standard articulated in Hibbs and
Miller. Pointedly, the District of Columbia Circuit
held that the FCA “does not contemplate liability for all
damages that would not have arisen ‘but for’ the false
statement.” United States, ex rel., Schwedt v. Planning
Research Corp., 59 F.3d 196, 200 (1995). The panel
opinion’s standard is nothing more than a “but for” the
fact that the loans were FHA insured, HUD would not
have suffered a loss, a standard that conflicts with the
District of Columbia Circuit.

20
II.

The Opinion Below cites Miller and
proximate cause in name but applies “but
for” causation.

Miller could not have been clearer: “[i]n the context
of a federal housing case, the United States must show
that the false statements in the application were the
cause of subsequent defaults.” Miller, 645 F.2d at 476.
The Fifth Circuit acknowledged this standard but
backed away from it in the opinion below by arguing
that proximate cause is “a flexible concept.” Pet. App.
9 (internal citations omitted). But, flexible or not,
proximate cause still requires more than an
“attenuated” causal connection between the conduct
and the harm. Paroline, 572 U.S. at 445. This causal
connection was not present in the case below. With its
opinion below requiring only foreseeability to satisfy
the FCA’s causation element, the Fifth Circuit changed
the definition of proximate cause, abrogated Miller, and
created a conflict with the other circuits.
The Fifth Circuit fell victim to the post hoc ergo
propter hoc fallacy (“after this, therefore because of
this”). According to the Fifth Circuit, because the loans
were ineligible for FHA insurance because of a false
statement regarding branch identification numbers by
the Petitioners or reckless underwriting, any later
default was necessarily the result of that false
statement or reckless underwriting: “[t]he
government’s expert, though, testified explicitly about
deficiently underwritten loans that resulted in claims.”
Pet. App. 11. This is not a sufficiently proximate
causal connection to support FCA liability under the
rule adopted by the Third, Seventh, Tenth and District

21
of Columbia Circuits, as well as the Fifth Circuit until
that standard was overturned in this case. It bears
repeating what the Third Circuit held in Hibbs:
We are unable to accept this argument because
it ignores the statute’s [FCA] restrictive
language “by reason of.” The damages were
sustained by the United States because of
defaults of the mortgagors and to some extent
were increased by the unexpected diminution of
property value caused by the lead paint
injunction. Neither of those events was caused
by or related to the false certifications. Indeed,
precisely the same loss would have been suffered
by the government had the certifications been
accurate and truthful.
To further illustrate the extreme to which the
government’s argument would lead if the
mortgagors had defaulted because their houses
had been destroyed by a flood or some other
uninsured catastrophe, the government’s theory
would nevertheless hold Hibbs liable because he
failed to call attention to defects in the
plumbing.
Id. at 351. Thus, even if the originating branch had
been properly registered and/or if the loan file been
perfectly underwritten, if the borrower died and the
loan went into default, the government would have
suffered the same loss. The false branch identification
numbers and the underwriting flaws the government
complained of in this case therefore could not be the
proximate cause of the government’s losses in those
instances.

22
Furthermore, the jury was only asked whether they
found loans to have been originated from unregistered
branches or recklessly underwritten—they were not
asked, nor did they find, that either wrongly
identifying the originating branch or reckless
underwriting loan caused a loan to default. Pet.
App. H. If such a causal connection had been made,
certainly the district court or the Fifth Circuit would
have said so in their opinions. To overcome this
complete failure of proof, both the district court and
Fifth Circuit limited their proximate cause analysis to
foreseeability alone, rather than analyzing both
foreseeability and causation-in-fact as required by the
sister circuits. Pet. App. 8-10, 31-32. Thus, liability
was found here because when the jurors found that the
loans were ineligible for FHA insurance the Petitioners
became liable for any defaulted loan, regardless of the
cause of the default—post hoc ergo propter hoc.
If the this is the appropriate causation standard,
the FCA’s reach becomes open-ended and any
regulatory violation will sustain liability for the law’s
treble damages and other penalties. With the decision
below, the Fifth Circuit has not only changed the
definition of proximate cause, it has placed itself in
conflict with the Third, Seventh, Tenth, and District of
Columbia Circuits.
III.

This Court’s decision in Escobar should
guide it now in setting the FCA’s causation
standard.

This Court’s decision in United Health Serv., Inc. v.
United States ex rel. Escobar, 136 S. Ct. 1989 (2016),
set forth a clear and workable materiality standard for

23
FCA claims. The work of this Court in that decision can
and should guide it here.
The Court noted that the FCA treble damages and
civil penalties make the FCA “essentially punitive in
nature.” Id. at 1996 (quoted citation omitted). And the
Court also pointedly “emphasize[d]” “that the [FCA] is
not a means of imposing treble damages and other
penalties for insignificant regulatory . . . violations,” Id.
at 2004. This Court acknowledged “concerns about . . .
open-ended liability” under the FCA in the context of
program-wide certifications in regulatory programs
(like here) but held that those concerns “can be
effectively addressed through strict enforcement of the
Act’s materiality and scienter requirements,”
reaffirming that those “requirements are rigorous.” Id.
at 2002 (quoted citation omitted).
As discussed above, the courts of appeal that have
grappled with the causation standard were also
concerned with the open-ended liability that would
come with a less stringent causation standard for FCA
claims. And each adopted proximate cause as the
appropriate standard requiring that the harm be
foreseeable and that the conduct at issue be causally
connected to the resulting harm. What the Fifth
Circuit did below is to keep the term proximate cause,
but it eliminated the causal connection element from
the concept. Rather than requiring the conduct to be a
substantial factor in causing the harm, the Fifth
Circuit has now adopted a proximate cause standard
that only requires the harm to be foreseeable. Thus,
the Fifth Circuit’s new proximate cause standard is
different from “but for” causation in name only. And

24
contrary to the teaching of Escobar, in the Fifth
Circuit, the FCA’s reach is nearly unlimited.
IV.

The Court should adopt the proximate
cause standard from Hibbs.

In order to anchor the reach of the FCA to its
language informed by the common law, this Court
should adopt the proximate cause standard adopted by
the Third Circuit in Hibbs, because it “strikes the
proper analytical balance and comports with the rule
requiring strict construction of punitive civil statutes.”
Sikkenga, 472 F.3d at 715 n.17. And, contrary to the
assertion made by the Fifth Circuit below, the Hibbs
standard is workable in cases that involve sampling
and extrapolation. The government could have taken
from the sampled loans, each file that contained a
fraudulent statement regarding the borrower’s
creditworthiness or ability to repay the loan and
extrapolated those findings over the universe of
defaulted loans. That is how a causal connection is
made—and it is what was not done in this case.
Adopting the Hibbs standard, which was adopted by
the Seventh Circuit in Luce, the Tenth Circuit in
Sikkenga, the District of Columbia Circuit in Schwedt,
and by the Fifth Circuit in Miller (effectively abrogated
by the Fifth Circuit in the opinion below), will provide
litigants with a uniformed standard and resolve the
confusion and inconsistency present in FCA
jurisprudence today. Adopting the Hibbs standard
returns the Fifth Circuit to where it stood before it
upended its own jurisprudence in this case and will
provide consistency across the circuits.

25
V.

This case presents an ideal opportunity for
the Court to resolve this circuit split and
decide a question of exceptional
importance to FCA litigants.

As noted above, the FCA is one of the most heavily
litigated statutes in federal courts and is one of the
primary vehicles through which the federal
government pursues those who commit fraud against
it. The question of the proper causation standard
under the FCA is important to the litigants as they
should not be left to guess what standard applies.
Neither should it be the case where litigants in the
various circuits are held to different standards for the
same conduct under the same federal statute. Given
the FCA’s severe penalties which this Court considers
punitive in nature, Escobar, 136 S. Ct. at 1996,
resolution of the split between the circuits is
exceedingly important.
This case is an excellent vehicle for resolving this
exceedingly important and recurring question. The
Fifth Circuit’s opinion below conflicts directly with the
law in four other circuits because the Fifth Circuit
eliminated the proximate cause requirement that the
conduct at issue in FCA cases be a substantial factor in
causing the harm to the government in order for
liability to be imposed. The Court can settle this split
between the circuits as to the causation standard of the
FCA.

26
CONCLUSION
For the foregoing reasons, this petition for a writ of
certiorari should be granted.
Respectfully submitted,
David Alan Warrington
Counsel of Record
KUTAK ROCK LLP
1625 Eye Street NW
Suite 800
Washington, D.C. 20006
(202) 828-2437
david.warrington@kutakrock.com
Counsel for Petitioners

